                     U.S. DEPARTMENT OF THE INTERIOR
                        OFFICE OF INSPECTOR GENERAL

                     FLASH REPORT

            PUBLIC SAFETY CONCERNS AT
              FLOYD BENNETT FIELD,
        GATEWAY NATIONAL RECREATION AREA




                           Stored Materials in Hangar at Floyd Bennett Field



C-IN-NPS-0001-2005                                 NOVEMBER 2004

                           1
2
Observations
        We discovered that the general public had unrestricted access to many of the aircraft
hangers at Floyd Bennett Field. We inspected aircraft hangers identified as numbers 1 and 2.
The hangars were not locked or secured in any way, and we did not observe any signs
instructing the public not to enter. Both aircraft hangers were in dilapidated condition and
presented potential safety risks to the visiting public. Dangerous conditions included:

   •   Unsafe structural conditions including a partially collapsed roof.




                                         Collapsed Roof




                                               2
Pieces of Collapsed Roof on Floor and
    Unknown Substance in Barrel




                 3
•   Storage of unsecured machinery, industrial equipment, chemicals, and other unlabeled
    and unknown substances.




                        Storage of Equipment and Chemicals




                                          4
   •   Uncovered vertical shafts, approximately four to five feet deep, some of which were
       filled with water, in the concrete floor of both aircraft hangers.

        NPS officials advised that these aircraft hangers are included in the Facilities
Maintenance Software System with an Asset Priority Index of 36 out of 40 (40 is the highest
priority). The officials stated that repairs had not been made to these facilities because funds
were not available. Officials could not explain why the facilities were not locked or otherwise
secured from the public.

Recommendations

       We recommend that the Director, National Park Service, ensure that the
Superintendent, Gateway National Recreation Area:

       1. Takes immediate steps to prevent public access to all unsafe aircraft hangers at
          Floyd Bennett Field.

       2. Conducts an inspection of all facilities at Floyd Bennett Field to identify any
          additional facilities presenting a safety risk to the public and take action to prevent
          access to these facilities.

       We discussed these conditions with NPS officials at the time of our visit and provided
additional information during a November 10, 2004 teleconference. The Superintendent
agreed that immediate action was needed to safeguard the public from these safety hazards.

       Please provide us with your written comments to this report and a summary of actions
taken or planned by December 20, 2004. Please address your response to:

                      Mr. Roger La Rouche
                      Assistant Inspector General for Audits
                      U.S. Department of the Interior
                      Office of Inspector General
                      1849 C Street, NW, MS 5341
                      Washington, D.C. 20240

      If you have any comments or questions regarding this report, please call me at (303)
236-9243.




                                               5
